No. 19-511
IN THE

Supreme Court of the United States
_________
FACEBOOK, INC.,
Petitioner,
v.
NOAH DUGUID, individually and on behalf of
himself and all others similarly situated,
Respondent,
and
UNITED STATES OF AMERICA,
Respondent-Intervenor.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 11th day of September 2020, caused three copies of the Brief of
Midland Credit Management, Inc. as Amicus Curiae In Support of Petitioner to be
served via overnight mail and an electronic version of the document to be transmitted
via the Court’s electronic filing system to:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Sergei Lemberg
Lemberg Law LLC
43 Danbury Road
Wilton, CT 06897
(203) 653-2250
slemberg@lemberglaw.com

Counsel for Facebook, Inc.

Counsel for Noah Duguid

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States
/s/ Zachary C. Schauf
Zachary C. Schauf

